                                      SOCIAL SECURITY
MEMORANDUM

Date:      April 20, 2011                                                Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Cost Analysis System Background Report and Viability Assessment (A-15-10-20149)


           We contracted with Grant Thornton LLP (Grant Thornton) to perform four reviews
           related to the Social Security Administration’s (SSA) Cost Analysis System (CAS) and
           Cost Allocation Methodology. The attached final report presents the results of Grant
           Thornton’s CAS background and viability assessment. Grant Thornton’s objectives
           were to:

           1. Provide general background information on SSA’s CAS and its interfacing workload,
              work year, and financial accounting data systems.
           2. Provide an overview of the history of the CAS technology and cost allocation
              methodology, including how long the current CAS has been in operation and how
              the CAS methodology has changed historically.
           3. Determine the impact of automation upgrades to CAS and its interfacing workload,
              work year, and financial accounting systems.
           4. Assess the viability of CAS in terms of its cost allocation methodology, operational
              process, technology, supporting infrastructure, and business value. Specifically,
              determine whether the current CAS has been enhanced or appropriately updated to
              account for changes in business processes, technology, or accounting standards.

           Please provide within 60 days a corrective action plan that addresses each
           recommendation. If you wish to discuss the final report, please call me or have your
           staff contact Steven L. Schaeffer, Assistant Inspector General for Audit, at
           (410) 965-9700.




                                                   Patrick P. O’Carroll, Jr.

           Attachment
           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


       COST ANALYSIS SYSTEM
      BACKGROUND REPORT AND
       VIABILITY ASSESSMENT


    April 2011     A-15-10-20149




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

    Conduct and supervise independent and objective audits and
       investigations relating to agency programs and operations.
      Promote economy, effectiveness, and efficiency within the agency.
      Prevent and detect fraud, waste, and abuse in agency programs and
       operations.
      Review and make recommendations regarding existing and proposed
       legislation and regulations relating to agency programs and operations.
      Keep the agency head and the Congress fully and currently informed of
       problems in agency programs and operations.

   To ensure objectivity, the IG Act empowers the IG with:

    Independence to determine what reviews to perform.
    Access to all information necessary for the reviews.
    Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                              Executive Summary
The Social Security Administration (SSA) has the responsibility to protect the four Trust
Funds for which it provides administrative support. They are the Retirement and
Survivors Insurance Trust, the Disability Insurance Trust, the Hospital Insurance Trust,
and the Supplementary Medical Insurance Trust. To help meet that responsibility,
SSA’s Commissioner established a cost analysis program in July 1973. The program
was established based on the policy that administrative costs for all Trust Fund and
general fund programs administered by SSA and for reimbursable work performed by
SSA for outside organizations are to be allocated based on cost sharing principles. A
central part of SSA’s cost analysis program is its Cost Analysis System (CAS).

OBJECTIVES
The objectives of the CAS Background Report and Viability Assessment were to:

1. Provide general background information on CAS and its interfacing workload, work
   year, and financial accounting data systems.
2. Provide an overview of the history of the CAS technology and cost allocation
   methodology, including how long the current CAS has been in operation and how
   the CAS methodology has changed historically.
3. Determine the impact of automation upgrades to CAS and its interfacing workload,
   work year, and financial accounting systems.
4. Assess the viability of CAS in terms of its cost allocation methodology, operational
   process, technology, supporting infrastructure, and business value. Specifically,
   determine whether the current CAS has been enhanced or appropriately updated to
   account for changes in business processes, technology, or accounting standards.

This report documents our findings, conclusions, and recommendations for the CAS
Background Report and Viability Assessment.

BACKGROUND
CAS is used to allocate (1) administrative costs to Trust Fund and general fund
programs administered by SSA and (2) reimbursable work performed by SSA for
outside organizations. This mainframe-based system, now in service for over 30 years,
has been modified several times to enhance its functionality and cost-effectiveness.
Because of the number and magnitude of system changes and the criticality of CAS’
function, SSA’s Office of the Inspector General tasked Grant Thornton LLP with
examining CAS’ background, history, and ongoing viability. This report includes
documentation of CAS and its interfacing workload, work year, and financial accounting
data systems. In addition, this report includes an assessment of the viability of the



Cost Analysis System Background Report and Viability Assessment (A-15-10-20149)         i
current CAS design with respect to cost allocation methodology, information technology,
systems, administrative and program operations, and supporting infrastructure.

RESULTS OF REVIEW
The primary purpose of CAS is to determine the amount of reimbursement due from
each Trust or general fund to which SSA provides administrative support, including the
Medicare Trust Funds. The primary internal users of CAS information are the Offices of
Finance (OF), Budget (OB) and Public Service and Operations Support (OPSOS). OF
uses CAS data to determine administrative costs chargeable to SSA’s sources of funds
and the level of reimbursement for reimbursable work performed for outside
organizations. OF also uses these data for the Statement of Net Cost. OB relies on
CAS-generated productivity data to project future resource requirements to meet
expected workloads. CAS data support the budget process by providing workload and
work year data used in formulating and executing the budget. Finally, CAS data help
OPSOS measure aggregate productivity of SSA and its components and unit cost data
for SSA and component workloads.

Payroll, general ledger, and workload measurement systems provide the data inputs to
CAS. The cost allocation methodology uses work measurement data to assign direct
and indirect costs to workloads. Work measurement involves point-in-time work
sampling techniques that were already in place before the implementation of CAS.

CAS was developed based on a 1973 SSA Commissioner’s Decision, which set forth
cost-sharing principles. CAS began operations in 1976. In 1980, the Government
Accountability Office, then called the General Accounting Office (GAO), approved CAS
as SSA’s administrative cost allocation system. CAS uses commitments and
obligations rather than actual expenses as the primary components of its allocation
base. GAO determined the analysis of obligations, rather than actual expenses, was
acceptable. However, this approval was issued before Federal Accounting Standards
Advisory Board standards were developed that established operating expenses as the
requirement for managerial cost accounting.

In 1997, at the request of GAO, Price Waterhouse LLP reviewed the CAS cost
allocation methodology for charging costs to the Medicare Trust Funds. Price
Waterhouse recommended significant changes to the cost allocation methodology that,
to date, have not been implemented.

SSA is in the process of modernizing the CAS technology platform. SSA initiated a
phased implementation of CAS Replacement (CASRP). In 2007, CASRP introduced an
Oracle database and client server technology. The current plan is to fully replace the
mainframe with an Oracle-based system by 2013. These improvements were not made
to address the Price Waterhouse findings.

CAS viability was assessed against criteria related to cost allocation methodology,
operational process, technology, supporting infrastructure, and business value.


Cost Analysis System Background Report and Viability Assessment (A-15-10-20149)       ii
CONCLUSION AND RECOMMENDATIONS
We concluded that the SSA CAS is viable for calculating administrative costs if the risks
identified during this audit are addressed. To this point in its lifecycle, CAS has been
sustainable because of the following.

•   It has a repeatable process based on an automated cost allocation system with
    automated feeder systems.
•   It uses accounting, payroll, and workload input data from mature, legacy systems.
•   SSA has continually upgraded CAS and feeder systems technology, and the CAS
    technology roadmap, if followed, is leading to further automation in the future.
•   SSA has most supporting infrastructure in place to sustain and maintain CAS. This
    supporting infrastructure includes a Program Management Office, which is a function
    of the Office of Cost Analysis and Systems Support; technical support provided by
    the Office of Earnings Enumeration and Administrative Systems; a Steering
    Committee (that is, the SSA Unified Measurement System/Managerial Cost
    Accountability System steering committee); limited policies, procedures and
    manuals; an Intranet site; daily backup; and three technical environments
    (production, development, and testing).
•   Key customers, such as personnel from OB, OF, and the Office of Operations,
    indicated that, for the most part, they are satisfied with CAS.

However, we identified two risks that needed to be addressed.

1. Equitable and appropriate allocation of administrative costs to the Trust Funds could
   be at risk because (a) the CAS cost allocation methodology had not been revisited
   or updated to account for changes in SSA business processes, system technology,
   or Federal accounting standards and (b) the relative complexity of the workloads;
   and thus the effort to process claims at the field offices, disability determination
   services, and program service centers, could possibly not be accounted for in the
   cost allocation methodology.
2. Continuity of operations could be at risk because of (a) incomplete, outdated, and/or
   unclear CAS documentation and (b) insufficient workforce planning.

We recommended that SSA:

•   Review and update the CAS methodology as needed, in light of current statutes,
    regulations, and Federal accounting standards, as well as current SSA business
    processes and system technology.
•   Review, update, and enhance the Administrative Instructions Manual System (AIMS)
    documents, Cost Analysis Manual, and other policies and procedures annually, and
    when major changes are implemented. The CAS methodology should be clearly
    documented, especially the rationale, methodology, and calculations of the Inter-


Cost Analysis System Background Report and Viability Assessment (A-15-10-20149)         iii
    Trust Fund Adjustment. The CAS strategic plan should be updated annually, to
    reflect any changes in priorities, timelines, and funding requirements.
•   Establish and periodically update a staffing succession plan encompassing Office of
    Cost Analysis and Systems Support and Office of Earnings Enumeration and
    Administrative Systems staff to ensure continuity of operations and to mitigate the
    risk of CAS institutional knowledge loss through attrition.

AGENCY COMMENTS
SSA determined that because of the interrelationship of all four CAS reviews, it was
premature to comment or respond to Grant Thornton’s recommendations. Once SSA
receives the results of all CAS reviews, it will provide consolidated comments and
responses to the recommendations.




Cost Analysis System Background Report and Viability Assessment (A-15-10-20149)        iv
                                                                      Table of Contents
                                                                                                               Page

INTRODUCTION ..................................................................................................... 1

RESULTS OF REVIEW .......................................................................................... 3

CONCLUSIONS AND RECOMMENDATIONS ..................................................... 16

APPENDICES

APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Cost Analysis System Component Descriptions

APPENDIX D – External Recognition for Cost Analysis System

APPENDIX E – Agency Comments




Cost Analysis System Background Report and Viability Assessment (A-15-10-20149)
                                                                        Introduction
The Social Security Administration (SSA) has the responsibility to protect the four Trust
Funds for which it provides administrative support. They are the Retirement and
Survivors Insurance (RSI) Trust, Disability Insurance (DI) Trust, Hospital Insurance (HI)
Trust, and Supplementary Medical Insurance (SMI) Trust. To help meet that
responsibility, SSA’s Commissioner established a cost analysis program in July 1973.
The program was established based on the policy that administrative costs for all Trust
Fund and general fund programs administered by SSA and for reimbursable work
performed by SSA for outside organizations are to be allocated based on cost-sharing
           1
principles. A central part of SSA’s cost analysis program is its Cost Analysis System
(CAS).

OBJECTIVES
Our objectives were to:

1. Provide general background information on CAS and its interfacing workload, work
   year, and financial accounting data systems.
2. Provide an overview of the history of the CAS technology and cost allocation
   methodology, including how long the current CAS has been in operation and how
   the CAS methodology has changed historically.
3. Determine the impact of automation upgrades to CAS and its interfacing workload,
   work year, and financial accounting systems.
4. Assess the viability of CAS in terms of its cost allocation methodology, operational
   process, technology, supporting infrastructure, and business value. Specifically,
   determine whether the current CAS has been enhanced or appropriately updated to
   account for changes in business processes, technology, or accounting standards.

BACKGROUND
The Social Security Act 2 authorizes SSA to allocate administrative costs to the four
Trust Funds for which it provides administrative support: RSI Trust, DI Trust, HI Trust,
and SMI Trust. SSA uses CAS to allocate administrative costs to these four Trust
Funds and general fund programs administered by SSA, such as the Supplemental
Security Income (SSI) program as well as for reimbursable work performed by SSA for
outside organizations, such as Black Lung work for the Department of Labor and Annual
Wage Reporting for the Internal Revenue Service.

1
 SSA, Face Sheet for Acting Commissioner’s Action Meeting Submittal, Proposed Policy for Allocating
Administrative Costs Among the Programs Administered by SSA, pp.1-12. July 16, 1973.
2
    Social Security Act § 201(g)(1), 42 U.S.C. §401(g)(1).


Cost Analysis System Background Report and Viability Assessment (A-15-10-20149)                       1
CAS integrates data from payroll, Agency work measurement systems, and the SSA
core financial accounting system and assigns costs to specific program activities and
workloads. CAS provides workload, work year and administrative cost data needed to
accomplish essential cost accounting functions at the Agency and major component
levels. It is the central part of SSA's cost analysis program, embodying the cost
allocation policy and principles established by the Agency.

SSA's policy for allocating administrative costs was initially established by a
July 31, 1973 Commissioner's Decision. 3 It states that costs related solely to one
program will be assigned exclusively to that program. Further, it provides that costs that
benefit multiple programs will be equitably distributed among these programs, based on
the proportionate value of those shared costs to each of the benefiting programs. CAS
was designed to account for administrative costs by program activity in accordance with
this policy. CAS provides this cost information at the Agency level and for SSA's
principle component organizations. The original CAS became operational in 1976. 4
CAS is operated and maintained by the Office of Cost Analysis and Systems Support
(OCASS) with technical support provided by the Office of Earnings, Enumeration and
Administrative Systems (OEEAS).

This mainframe-based system has been in service for over 30 years. Because of the
criticality of CAS’ function in SSA’s ability to provide reliable and timely information on
the full cost of the programs it administers, SSA’s Office of the Inspector General tasked
Grant Thornton LLP with examining CAS’ background, history, and ongoing viability.
This audit included documenting CAS and its interfacing workload, work year, and
financial accounting data systems. This report chronicles significant changes in
process, methodology, and automation technology; the level of current automation; and
the impact of automation upgrades that have occurred during CAS’ years in service.
Additionally, this report includes a viability assessment to determine whether the current
CAS design, including technology and supporting infrastructure, has been enhanced or
appropriately updated to account for changes in business processes, technology, or
accounting standards.

This document is a summary of our work and our resulting conclusions and
recommendations.




3
    SSA, supra note 1.
4
    SSA, Cost Analysis Manual, Chapter 2-00, Section 2-00-10.


Cost Analysis System Background Report and Viability Assessment (A-15-10-20149)           2
                                                   Results of Review
Audit Objective 1: Provide General Background Information on SSA’s
Administrative Cost Allocation System
The primary purpose of CAS is to determine the amount of reimbursement due from
each Trust or general fund to which SSA provides administrative support, including the
Medicare Trust Funds. CAS is also used to

•   provide Congress with an accounting of each program’s administrative costs,
•   provide productivity data to help project future work year estimates for budgetary
    purposes, and
•   help manage the administrative budget and perform cost analyses.

Unlike most organizations’ managerial cost accounting systems, SSA’s CAS was not
originally intended to perform in a cost management capacity. Rather, it was put in
place to allocate administrative costs to the various Trust and general fund programs.
CAS policy dictates that the allocation of administrative costs be based on cost sharing
principles. This policy dictates that, for those costs that need to be shared among
various program activities, sharing will be done based on benefit outlays related to
those programs that issue benefit payments and by other appropriate methods for non-
benefit paying programs.

The primary internal users of CAS information are the Offices of Finance (OF), Budget
(OB) and Public Service and Operations Support (OPSOS). Representatives from
these organizations expressed satisfaction with the data they receive from CAS.

OF also uses CAS data to determine administrative costs chargeable to SSA’s sources
of funds and the level of reimbursement for reimbursable work performed for outside
organizations. OF also uses these data to break out costs by program for the
Statement of Net Cost. OB relies on monthly CAS-generated productivity data to
project future resource requirements to meet expected workloads. CAS data support
the budget process by providing base (actual) workload and work year data that are
used in formulating and executing the budget. CAS is used to measure actual
productivity for major operating components. OB also prepares budget execution
reports that compare actual workload, work years, and production rates with operating
budget estimates. Finally, CAS data helps OPSOS measure aggregate productivity and
unit cost data for SSA and its components’ workloads.

The CAS cost allocation methodology consists of an “allocation” to program activities
based on work years; a “distribution” to program workloads based on work years; and
an Inter-Trust Fund Adjustment (ITFA), based on cost sharing principles. The ITFA




Cost Analysis System Background Report and Viability Assessment (A-15-10-20149)            3
adjusts costs in proportion to the current value of benefit outlays and sequential benefits
(that is, current DI recipients eventually shifting to RSI upon retirement). 5

Payroll, general ledger, and workload measurement systems provide the data inputs to
CAS. The cost allocation methodology uses work measurement data to assign direct
and indirect costs to workloads. Work measurement involves point-in-time work
sampling techniques that were in place before CAS was implemented in 1976. The
work sampling intervals vary by component. Work sampling is conducted weekly at the
field offices (FO) and teleservice centers; three times daily for 1 week each quarter at
the disability determination services (DDS); and daily at the program service centers
(PSC). Work sampling performed in the FOs, DDSs, and PSCs is manually intensive.
Sampling tallies are manually transcribed into automated systems to organize and
aggregate data.

The Office of Disability Adjudication and Review (ODAR) cost allocation process is
similar to the overall cost allocation process used by the other SSA components.
However, there are two major differences in ODAR’s pre-allocation processing. First,
ODAR does not have work measurement systems that directly link to CAS. Instead,
ODAR collects payroll and work measurement information that is manually uploaded
into a spreadsheet. Once uploaded, the spreadsheet is sent to OCASS, which operates
CAS, to be reformatted and uploaded into CAS. Second, ODAR does not conduct
workload sampling to determine work hours like many of the other SSA component
organizations. Rather, ODAR applies standard time values to the workload count
information coming from the Case Processing and Management System (CPMS) and
the Appeals Review Processing System (ARPS) to determine the work hours by
workload. These calculated total work hours are then converted to work years and
compared with control work year figures that are provided by OCASS. Control work
years are actual employee work years consumed, during the operating period. They
are reported, by component, as recorded in the Payroll Operational Data Store
(PayODS) for the period being calculated. Any difference between the calculated work
year and control work year figures is then prorated and reassigned to the workloads.
Typically, this difference is less than 1 percent and considered insignificant.

Audit Objective 2: Provide an Overview of the History of CAS
CAS was developed based on a 1973 SSA Commissioner’s Decision that set forth cost-
sharing principles. No signed or approved copy of this document was available for
examination. However, we did obtain and review a 1973 memorandum 6 from the Acting
Assistant Commissioner for Administration to the Acting Commissioner of SSA that
outlines a proposed policy for allocating administrative costs among the programs, to
which SSA provides administrative support. We were not able to determine whether the
Commissioner approved the proposal as submitted or if modifications were directed.

5
 SSA, Administrative Instructions Manual System (AIMS) 04.02.05 H, Financial Management, Cost
Allocation Principles.
6
    SSA, supra note 1.


Cost Analysis System Background Report and Viability Assessment (A-15-10-20149)                 4
CAS began operations in 1976. In 1980, the General Accounting Office (GAO), now
called the Government Accountability Office, approved CAS as the SSA administrative
cost allocation system. 7 CAS uses commitments, obligations, and other “costs”
(accrued and expensed line items) rather than actual expenses as the primary
components of its allocation basis. GAO determined the analysis of obligations, rather
than actual expenses, was an “. . . acceptable basis for the purpose which it serves.” 8
However, this approval was issued before the accounting standards developed by the
Federal Accounting Standards Advisory Board (FASAB) that exist today, which
establish operating expenses as the requirement for cost accounting systems. 9 CAS
has also received positive external recognition from the Association of Government
Accountants, the Office of Management and Budget, and Deloitte, an audit and
consulting firm. Highlights of this recognition are provided in Appendix D.

In 1997, at the request of GAO, Price Waterhouse LLP reviewed the cost allocation
methodology used in charging costs to the Medicare Trust Funds. Price Waterhouse
recommended significant changes to the cost allocation methodology. Price
Waterhouse stated that the use of benefit outlays as a cost assignment basis for shared
workload cost did not result in equitable cost assignment and recommended its use be
discontinued in favor of cause-and-effect cost assignment. They also recommended
changing assumptions related to the treatment of non-personnel costs and hearings
costs. 10 In response to the review, SSA indicated that it looked “. . . forward to the
challenge…to again pioneer the Federal effort to successfully implement new,
expanded cost accounting practices, improvements to management information
systems and procedures recently promulgated as Federal Accounting Standards
Advisory Board standards.” 11 To date, the Price Waterhouse recommendations for
improving the cost allocation methodology have not been implemented.

The Price Waterhouse report also recommended, “modifying or replacing” the aging
CAS technology. 12 To modernize the CAS technology platform, SSA initiated a phased
implementation of CAS Replacement (CASRP). In 2007, CASRP introduced an Oracle
database and client server technology. The current plan is to fully replace the
mainframe by 2013 with an Oracle-based system.


7
 Comptroller General Letter (GAO), Approval of the Social Security Administration Administrative
Accounting System, September 30, 1980.
8
Id.
9
 FASAB, Statement of Federal Financial Accounting Standards (SFFAS) No. 4, Managerial Cost
Accounting Concepts and Standards for the Federal Government, para 47, 49, and 61, July 31, 1995.
10
  GAO, Social Security Administration Cost Assignment Methodology Review, (Price Waterhouse LLP),
pp. 2-3, September 29, 1997.
11
     Id. at 98.
12
     Id. at 3.


Cost Analysis System Background Report and Viability Assessment (A-15-10-20149)                     5
Significant automation of SSA’s business processes has occurred since CAS was
implemented. Examples of this automation include the implementation of the
Modernized Claims System (MCS), the Modernized Supplemental Security Income
Claims System (MSSICS), the On-Line Retirement Application (iClaim), roll-out of
Immediate Claims Taking Units (ICTU), and the introduction of desktop computers and
800-number service. According to OPSOS representatives, these improvements have
had a significant impact on the manner in which SSA interfaces with claimants and on
employee productivity. A timeline of changes to SSA’s business processes is provided
in Figure 1.

                    Figure 1: Major Changes to SSA’s Business Processes




Cost Analysis System Background Report and Viability Assessment (A-15-10-20149)        6
As shown in Figure 2, the original cost allocation methodology used in CAS was
established before 1973 and was formulated around then-existing work sampling
techniques used for budgeting purposes. We found no evidence that this methodology
has been revisited or updated to reflect changes in technology, business processes,
and the introduction of new accounting standards.

                                        Figure 2: CAS Historical Timeline

    <1970: SSA institutes work measurement based on work sampling techniques for budgeting purposes

      <1970: Cost allocation methodology developed based on existing work measurement systems (i.e., work sampling)

        <1970: Inter-Trust Fund Adjustment methodology developed

                       1973: SSA Commissioner’s Decision on Trust Fund cost sharing policy and principles

                               1976: CAS goes live

                                     1980: GAO reviews and approves SSA Administrative Accounting System including CAS.
                                     This approval occurred prior to introduction of federal cost accounting standards

                                                            1995: SFFAS No. 4 introduces federal cost accounting
                                                            standards. CAS not updated to reflect these.

                                                                 1997: GAO/Price Waterhouse Cost Assignment
                                                                 Methodology Review. Review surfaces several issues with
                                                                 CAS methodology that have not been addressed

                                                                          2003: CAS Intranet site created

                                                                                 2007: CASRP introduces Oracle database
                                                                                 and client server technology

                                                                                       2011: CAS restructures methodology
                                                                                       to Distribution/ Allocation

                                                                                          2013: CASRP to replace Mainframe

      <1970s           1970s            1980s           1990s            2000s           2010s




Audit Objective 3: Determine the Impact of Automation Upgrades to CAS
CAS is a mainframe-based cost allocation system that bases its calculations on data
from the following systems.

•   SSA’s core accounting system, the Social Security Online Accounting and Reporting
    System (SSOARS).
•   SSA’s payroll system interface, PayODS, which interfaces with the Federal
    Personnel/Payroll System (FPPS), the Department of Interior Payroll System, which
    processes payroll for SSA.




Cost Analysis System Background Report and Viability Assessment (A-15-10-20149)                                              7
•     The following Agency workload measurement systems.

          o   Supplemental Security Income Processing Time (SSIPT),
          o   Work Experience Reporting System (WERS),
          o   Work Measurement Transition (WMT),
          o   Processing Center Management Information (PCMI), which draws data from
              the Processing Center Action Control System (PCACS),
          o   State Agency Work Sampling (SAWS),
          o   Disability Insurance Operational Data Store (DIODS),
          o   Resource Accounting System/Mainframe Time & Attendance System
              (RASMTAS)
          o   Office of Medical and Vocational Expertise Case Tracking System
              (OMVECTS), ODAR Training Information System (OTIS), CPMS, ARPS, and
              the Data Mart Online Data Store through file upload from spreadsheets
              maintained by ODAR. 13

Technological improvements have been made to CAS. CAS Renovation has
automated the organizing and formatting of several feeder systems’ data, thereby
speeding the monthly processing cycle. The current CAS technical environment, which
depicts these interfaces, is shown in Appendix C. SSA’s technology roadmap plans for
sun-setting the CAS mainframe by 2013 and moving to an Oracle-based, client-server
environment, CASRP, which should reduce operational costs and improve user
accessibility to CAS information. CASRP is being implemented in phases. To date,
SSA has implemented an Oracle database, which interfaces with CAS Renovation
feeder systems, and the legacy mainframe system. The technical environment planned
for 2013 is shown in Appendix C.

Feeder systems have also been updated. SSOARS, an Oracle, client-server based core
accounting system replaced the previous mainframe-based Financial Accounting
System (FACTS) in 2004. In 2005, RASMTAS replaced the Deputy Commissioner for
Systems (DCS) client server application, Metrics Activity Reporting System (MARS),
which allowed for more accurate time reporting. WMT replaced the Integrated
Workload Measurement System (IWMS) as the workload information source for SSA’s
FOs in 2006.

In 2003, SSA attempted to implement a fully automated, non-intrusive 100-percent work
measurement system called the Time Allocation System. This work measurement
system was designed to account for FO and PSC employees' workload but was later
cancelled because of cost and complexity concerns.

Automation upgrades have focused on internal controls, data quality, and data entry.
While these improvements have been made over time, the cost allocation methodology
was never revisited or enhanced.
13
     CAS component descriptions are provided in Appendix C.


Cost Analysis System Background Report and Viability Assessment (A-15-10-20149)        8
Audit Objective 4: Assess System Viability
We defined viable as capable of working, functioning, and evolving. It does not mean
state-of-the-art or being on par with all leading practices. There are no defined
Government or industry criteria for cost allocation system viability. The criteria we
developed relate to (1) cost allocation methodology, (2) operational process,
(3) technology, (4) supporting infrastructure, and (5) business value. If CAS met these
criteria, it would be considered a viable system.

The viability criteria, along with our assessment of CAS, are as follows.

1) Cost Allocation Methodology

At a minimum, the cost allocation methodology must be consistent, be stable, meet
policy requirements, and be periodically reviewed. Otherwise, the resulting data would
be unreliable and not useful for agency reporting. The methodology must meet Federal
accounting requirements. Otherwise, results would not be credible for external
reporting. The methodology should also be periodically updated to account for changes
in accounting standards, technology, and business process. If not, the results could
present an inaccurate assessment of current operations.

The CAS methodology has remained consistent and stable since inception in 1976. It
meets the requirements of SSA’s documented policy, AIMS, 14 which provides the
governing policy and principles and the general methods for allocation of administrative
costs in SSA. However, the CAS methodology had not been updated in over 30 years.
Since the inception of CAS in 1976, there have been significant changes in SSA’s
business processes and Federal accounting standards that should have been reflected
in the methodology.

Lack of Procedures to Periodically Revisit, Update, and Document Significant
Changes to the Cost Allocation Methodology

It is critical that the CAS cost allocation methodology be revisited or updated to reflect
changes in SSA business processes and Federal accounting standards. CAS became
operational in 1976 and has been continuously modified to enhance functionality and
automate data feeds and processing; however, we found no documentation of any
periodic reviews of the cost allocation methodology. This failure to periodically revisit
and update the cost allocation methodology could result in costing assumptions and
cost factors that are no longer valid or accurate. Consequently, the equitable and
appropriate allocation of administrative costs to the Trust Funds could be at risk.

While CAS has been in operation, the ways SSA conducts business have undergone
several enhancements. These business process changes include shifts to online claims
processing, 800-number service, and electronic wage reporting. Because of these
technological advancements, the time SSA workers spend processing various work
14
     SSA, supra note 5.


Cost Analysis System Background Report and Viability Assessment (A-15-10-20149)              9
activities (that is, workloads) has been significantly altered. SSA’s current work
measurement system is based on point-in-time sampling that does not account for the
relative complexity of tasks or the effects of automation.

The last 30 years have also seen the introduction of new Federal accounting standards,
such as the Statement of Federal Financial Accounting Standards (SFFAS) No. 4
Managerial Cost Accounting Concepts and Standards for the Federal Government,
SFFAS No. 1 Accounting for Selected Assets and Liabilities,15 and SFFAS No. 5
Accounting for Liabilities of the Federal Government. 16 SFFAS No. 4 calls for increased
use of cause-and-effect methods for assigning costs to outputs and use of actual
expenses as the basis of accounting.

Cost allocation methodologies should be periodically reviewed and updated to account
for new accounting standards and changes to organizational business processes.

First, SFFAS No. 4 emphasizes the following.

•     “The full costs of resources that directly or indirectly contribute to the production of
      outputs should be assigned to outputs through costing methodologies or cost finding
      techniques that are most appropriate to the segment's operating environment and
      should be followed consistently.” 17

•     “The costing methodology used (e.g., activity-based costing, job order costing,
      standard costing, etc.) should be appropriate for management's needs and the
      operating environment.” 18

These statements indicate that the costing methodology should be “. . . appropriate for
management’s needs and the operating environment.” Typically, management’s
information needs and the organization’s operating environment would change over
time, thus necessitating a periodic review of the costing methodology.

Second, SFFAS No. 4 explains the following.

•     “Cost assignments should be performed using the following methods listed in the
      order of preference: (a) directly tracing costs wherever feasible and economically



15
  FASAB, Statement of Federal Financial Accounting Standards No. 1 Accounting for Selected Assets
and Liabilities, March 1993.
16
  FASAB, Statement of Federal Financial Accounting Standards No. 5 Accounting for Liabilities of the
Federal Government, December 2007.
17
  FASAB, Statement of Federal Financial Accounting Standards No. 4, Managerial Cost Accounting
Concepts and Standards for the Federal Government, para. 10, July 31, 1995.
18
     Id. at para. 71.


Cost Analysis System Background Report and Viability Assessment (A-15-10-20149)                        10
      practicable, (b) assigning costs on a cause-and-effect basis, or (c) allocating costs
      on a reasonable and consistent basis.” 19

•     “Indirect costs should be assigned to outputs on a cause-and-effect basis, if such an
      assignment is economically feasible, or through reasonable allocations.” 20

The point here is that economic feasibility can change over time with the introduction of
new information technologies. Again, periodic review should be performed to
investigate potential new sources of better cost allocation methods and availability of
data.

Third, SFFAS No. 4 stresses the following.

•     “Program managers should critically review costing methodologies and techniques
      used to derive the cost information.” 21

•     “The standard requires that a costing methodology, once adopted, be used
      consistently. Consistent use provides cost information that can be compared from
      year to year. However, this requirement does not preclude necessary improvements
      and refinements to the system or methodology, so long as the effect of any change
      is documented and explained. On the contrary, improvements are encouraged.” 22

These statements strongly imply that the cost allocation methodology should be
periodically reviewed to reflect evolving management needs and ensure
appropriateness, consistency, and reasonableness based on changes in the
organization’s operating environment and availability of new data, which could be used
to improve the accuracy of cost assignments.

Furthermore, the Social Security Act specifies that administrative cost allocations to the
Trust Funds “. . . shall be made in accordance with the cost allocation methodology in
existence on the date of the enactment of the Social Security Independence and
Program Improvements Act of 1994 until such time as the methodology for making the
determinations required under such sub clauses is revised by agreement of the
Commissioner and the Secretary….” 23 This clause implies that the cost allocation
methodology is not etched in stone, but rather can and should be revised as needed to
ensure a continued equitable cost allocation. As the administrator of the SSA CAS and

19
     Id. at para.115.
20
     Id. at para. 91.
21
     Id. at para. 212.
22
     Id. at para.146.
23
    Social Security Act §201(g)(1)(D), 42 U.S.C. §401(g)(1)(D).



Cost Analysis System Background Report and Viability Assessment (A-15-10-20149)               11
policy, it is incumbent upon OCASS to recommend to the Commissioner any feasible
enhancements that should be made to improve the equity of the Trust Fund
administrative cost allocation.

SSA has relied on a 1980 General Accounting Office 24approval of the SSA
Administrative Accounting System, which includes CAS, as a rationale for maintaining
its original cost allocation methodology. This methodology assigns obligation data to
program activities rather than actual expenses and uses benefit outlays as an
assignment method rather than more cause-and-effect based drivers. Additionally,
because of complex data collection and processing requirements, SSA’s primary focus
has been to update CAS technology, rather than look at its cost allocation methodology.
No attempt seems to have been made to assess the methodology as a result of either
new accounting standards or changes to SSA’s business processes.

The Relative Complexity of the Workloads in the Cost Allocation Methodology

The relative complexity of the workloads at the FOs, DDSs, and PSCs could possibly
not be accounted for in the cost allocation methodology. The cost allocation
methodology uses work measurement data to assign direct and indirect costs to
workloads. Work measurement involves point-in-time work sampling techniques that
were already in place before the implementation of CAS in 1976. Rather than design
and create a new information system to capture labor distribution data specifically for
cost allocation purposes, SSA decided to use the work measurement techniques
already in existence.

The work sampling techniques are used to collect tallies of what employees are working
on at various points in time. However, since the sampling is at a given point-in-time, the
level of effort and complexity associated with each workload could possibly not be
reflected in the data being captured. The point-in-time sampling methodology assumes
that level of effort, that is the total amount of time spent on each workload, is related to
the number of responses per sample rather than measuring the actual time worked on
each workload.

A sound cost allocation methodology assigns costs based on work measurement data
that accurately estimate the total amount of time the workforce spends on each
workload. The point-in-time sampling method that SSA employs measures the
workloads that employees are working on at a given time each week or month,
depending on the organization. From these data, one could infer what the total
workforce is working on at a given point in time (the workload frequency). However, it
could be incorrect to infer the total amount of time the workforce spends on each
workload given the various degrees of complexity associated with each workload.




24
     Comptroller General, supra note 7.


Cost Analysis System Background Report and Viability Assessment (A-15-10-20149)           12
2) Operational Process

At a minimum, the system operation should follow a repeatable data update process to
ensure reliability. The process should be documented so new staff can readily
understand operational procedures. Data should be provided by stable mature feeder
systems, which also increases confidence in data reliability.

The CAS operational process generally meets this requirement. CAS data updates
have been repeated monthly since inception. The update process is based primarily on
mature, automated feeder systems directly linked to CAS. The core accounting and
payroll systems that interface with CAS are stable and subject to individual audit. The
operation process is documented in CAS handbooks and process flowcharts.

3) Technology

For a system this complex and sophisticated to be viable, the system should be
automated to ensure consistency and control over data so that they can be run regularly
and periodically. Although state-of-the-art technology is not required for viability,
system technology should be periodically refreshed to maintain a relatively modern,
easily maintainable technical environment that can readily interface with other modern
software and systems. Separate technical environments for production, development,
and testing are also required to easily test and incorporate system upgrades and
enhancements. Adequate system security must be in place to prevent improper access
to input data and/or results. Periodic data back-up functionality and procedures should
be in place to ensure continuity of operations.

CAS generally meets the requirements for technology. CAS is a centralized, automated
system dedicated to cost allocation and analysis. SSA has continually upgraded CAS
and feeder system technology, and the CAS technology roadmap should lead to further
automation and reduction in operational costs. Four separate technical environments
are being maintained for production, development, validation, and integration. This
enables SSA to readily test and install system upgrades and enhancements. Security
passwords are required for CAS users (from the component representatives to OCASS
analysts) to work on CAS. To ensure system security, secondary identifications are
required for system administrators to update or change CAS. CAS data are backed up
6 days a week so data can be recreated in the event of a disaster or system crash.

4) Supporting Infrastructure

To operate a sound system, supporting infrastructure is required. This infrastructure
typically includes a Program Management Office to operate and maintain the system,
sufficient user documentation, and workforce planning to ensure continuity of operations
and retain institutional knowledge.

OCASS provides a central, dedicated program management office for CAS and is
responsible for administering the cost analysis program, developing policy, and


Cost Analysis System Background Report and Viability Assessment (A-15-10-20149)       13
maintaining and operating CAS. OEEAS provides technical support. Substantial user
documentation exists including a CAS manual, CAS handbook, and AIMS manuals on
CAS methodology and operations. These documents and additional documentation
reside on a dedicated CAS Intranet site that also lists contact information for customer-
related issues.

During our examination, we noted the following weaknesses related to SSA’s supporting
CAS infrastructure.

Incomplete, Outdated, and/or Unclear Documentation

CAS is a complex system and requires a high degree of institutional knowledge and
manual effort to maintain. Although substantial documentation does exist, many of
these documents offer process, methodology, and system descriptions that are
outdated, insufficient, or unclear. Some examples of inadequate documentation include
the following.

•   SSA documentation does not provide adequate explanation for the use of
    commitments and obligations rather than actual expenses for cost allocations.
•   The Cost Analysis Manual lacks adequate instructions on how to operate the
    system.
•   The CAS Documentation Handbook does not provide adequate context/explanation
    for charts and tables provided within the document.
•   The current SSA CAS flowchart does not accurately reflect current systems and
    operational procedures based on our discussions with OCASS personnel.
•   The description of the ITFA does not provide adequate detail on how the adjustment
    is actually calculated, making the methodology difficult to comprehend.

SSA developed and updated CAS policies and procedures on a piecemeal basis rather
than through a holistic approach and, thus, the documents have not been
comprehensively reviewed. Key personnel have informally maintained institutional
knowledge. Lack of complete, up-to-date documentation and established processes
could affect SSA’s continuity of operations if key personnel depart from SSA.
Additionally, the vision for CAS as a managerial cost accountability system could be
impeded if Agency managers cannot understand underlying methodologies and
formulas.

This weakness with documentation could result in a situation where a constantly
evolving workforce cannot gain an adequate understanding of the inner workings of this
complex system. Thus, continuity of operations could be at risk.




Cost Analysis System Background Report and Viability Assessment (A-15-10-20149)         14
Insufficient Workforce Planning

Workforce planning in OCASS and OEEAS to transfer CAS-related technical and
functional knowledge to new and existing staff before senior subject matter experts
depart was deemed insufficient. 25 SSA lacked a formalized, long-term staffing
succession plan to deal with the possible departure of key personnel involved in the
CAS process. Organizations should, as a standard practice, continually and thoroughly
plan for staffing succession to mitigate risk of critical institutional knowledge loss and
ensure continuity of operations.

During our fieldwork, we identified limited Agency staff with extensive knowledge of
CAS history, methodology, and technical environment. We found SSA’s attention to
human capital planning to be limited. In the almost 35 years that CAS has been in
operation, several of those who did the original design, implementation, and system
upgrades have retired, and more could occur because of the normal course of attrition.
This could lead to a critical situation where knowledge of the CAS system is insufficient
to perform many of the key functions. Normal attrition could result in significant loss of
institutional knowledge and could put the continuity of operations at risk.

5) Business Value

Lastly, to be viable, a system must support critical business processes, satisfy
customers, and enjoy executive-level support. Failing to do so would jeopardize critical
resourcing. The system would fall by the wayside to competing priorities.

CAS generally meets the requirements for business value. CAS supports administrative
cost allocation to the Trust Funds required by the Social Security Act. 26 CAS also
supports budgeting, productivity analyses, and the preparation of the Statement of Net
Cost. Primary customers in the OF, OB, and OPSOS have indicated satisfaction with
CAS.

A dedicated Program Management Office, OCASS, and significant investment in
technology, both to CAS itself and feeder systems, are indicative of executive-level
support for CAS. External recognition for the CAS program, mentioned earlier,
continues to strengthen executive level support.




25
   None of the organizations cited here were able to provide a succession plan to the audit team. OCASS
maintains a list of impending retirements, but has not formalized a system for dealing with other forms of
attrition.
26
     Social Security Act §201(g)(1)(B), 42 U.S.C. §401(g)(1)(B).


Cost Analysis System Background Report and Viability Assessment (A-15-10-20149)                        15
                                                  Conclusions and
                                                 Recommendations
Conclusions
Audit Objective 1: Provide General Background Information on SSA’s
Administrative Cost Allocation System

The primary purpose of CAS is to determine the amount of reimbursement due from
each Trust Fund to which SSA provides administrative support, including the Medicare
Trust Funds. CAS is also used to.

•   provide Congress with an accounting of the costs of administering each program,
•   provide productivity data to help project future work year estimates for budgetary
    purposes, and
•   help manage the administrative budget and perform cost analyses.

Payroll, general ledger, and workload measurement systems provide the data inputs to
CAS. The cost allocation methodology is based on work measurement. Work
measurement involves point-in-time work sampling techniques that were already in
place before CAS. The point-in-time sampling methodology assumes that level of effort
is related to number of responses per workload rather than actual time spent on a task
and does not take into account the relative complexity of one action as it relates to
another.

Audit Objective 2: Provide an Overview of the History of CAS

CAS has been in operation since 1976. It was implemented to allocate administrative
costs to the various Trust Funds and programs. The original cost allocation
methodology used in CAS was established before 1973 and was formulated around
then-existing work sampling techniques used for budgeting purposes. In 1980, GAO
approved CAS as SSA’s administrative cost allocation system. GAO determined the
use of obligations, rather than actual expenses, was acceptable. This approval was
issued before the statutory, regulatory, and accounting standards that exist today. The
cost allocation methodology has not been revisited or updated to reflect changes in
technology and business processes or the introduction of new accounting standards.

Audit Objective 3: Determine the Impact of Automation Upgrades to CAS

Technological improvements have been made to CAS and feeder systems throughout
its history. CAS automation upgrades have focused on internal controls, data quality,
and data entry. However, the cost allocation methodology was never revisited or
enhanced.


Cost Analysis System Background Report and Viability Assessment (A-15-10-20149)          16
CAS is still a mainframe-based system. However, SSA plans to sunset the CAS
mainframe by 2013 and move to an Oracle-based, client-server environment, which
should reduce operational costs and improve user accessibility to CAS information.

Audit Objective 4: Assess System Viability

Based on our understanding of CAS as of the date of this report, we have determined
the system is viable for calculating administrative costs if the risks identified in this
report are addressed. To this point, CAS has been sustainable because.

•   CAS has a repeatable process based on an automated cost allocation system with
    automated feeders;
•   CAS uses accounting, payroll, and workload input data from mature legacy systems;
•   SSA has continually upgraded CAS and feeder systems technology, including plans
    for future automation; and
•   SSA has most supporting infrastructure in place to sustain and maintain CAS.

However, two risks have been identified that need to be addressed.

1. Equitable and appropriate allocation of administrative costs to the Trust
   Funds could be at risk because:

       •   The CAS cost allocation methodology had not been revisited or updated to
           account for changes in SSA business processes, system technology, or
           Federal accounting standards. Much has changed in the statutory/regulatory
           and accounting standards environment since CAS received approval from
           GAO in 1980. SSA has relied on the 1980 GAO approval of the CAS design,
           after which new Federal accounting standards were introduced. Leading cost
           management practice dictates that cost allocation methodology be
           periodically reviewed and updated to account for new accounting standards
           and changes to organizational business processes.
       •   The relative complexity of the workloads at the FOs, DDSs, and PSCs could
           possibly not be accounted for in the cost allocation methodology. The work
           sampling techniques used estimate the relative proportionality of what
           employees are working on, at various points in time. However, since the
           techniques are point-in-time sampling, the level of effort and complexity
           associated with each workload could possibly not be captured.

    As the cost allocation methodology has not been revised and does not account for
    relative complexity of workloads in assigning cost, administrative cost allocation to
    the Trust Funds could be incorrect or inequitable.




Cost Analysis System Background Report and Viability Assessment (A-15-10-20149)             17
2. Continuity of operations could be at risk because:

       •   CAS documentation is incomplete, outdated, and/or unclear. Most manuals
           (methodology, process, and system), primary policies, and strategy
           documents have not had a comprehensive review and update as the system
           has changed. Documentation for certain key processes is incomplete,
           making the processes difficult to comprehend. There is limited
           documentation explaining the use of commitments and obligations for cost
           calculations. The Cost Analysis Manual is outdated and does not provide
           adequate information. Various systems and process diagrams do not reflect
           the current process. Documentation was developed and updated piecemeal
           rather than through a holistic approach and has not been comprehensively
           reviewed. This lack of complete, up-to-date documentation could affect
           SSA’s continuity of operations in the event of the departure of senior subject
           matter experts. In addition, SSA’s vision for CAS, as a managerial cost
           accountability system, could be impeded, if Agency managers cannot
           understand underlying methodologies and formulas.
       •   Staff succession planning in OCASS and OEEAS to transfer CAS-related
           technical and functional knowledge is insufficient. There is no detailed
           succession plan for OCASS or OEEAS, which increases the risk of significant
           loss of institutional knowledge upon the departure of senior subject matter
           experts.

Good management practice dictates that organizations continually update critical
system documentation and thoroughly plan for staffing succession in the event of
normal staff turnover to mitigate risk of critical institutional knowledge loss and ensure
continuity of operations.

RECOMMENDATIONS
To address the risks cited in this report, we recommend SSA:

1. Review and update the CAS methodology as needed, in light of current statutes,
   regulations, and Federal accounting standards, as well as current SSA business
   processes and system technology.
2. Review, update, and enhance the AIMS documents, Cost Analysis Manual, and
   other policies and procedures on an annual basis, and when major changes are
   implemented. The CAS methodology should be clearly documented, especially the
   rationale, methodology, and calculations of the ITFA. The CAS strategic plan should
   be updated annually, to reflect any changes in priorities, timelines, and funding
   requirements.
3. Establish and periodically update a staffing succession plan, encompassing OCASS
   and OEEAS staff, to ensure continuity of operations and to mitigate the risk of CAS
   institutional knowledge loss through attrition.



Cost Analysis System Background Report and Viability Assessment (A-15-10-20149)              18
AGENCY COMMENTS
SSA determined that because of the interrelationship of all four CAS reviews that it was
premature to comment or respond to Grant Thornton’s recommendations. Once SSA
receives the results of all CAS reviews, they will provide consolidated comments and
responses to the recommendations.

The full text of SSA’s response can be found in Appendix E.




Cost Analysis System Background Report and Viability Assessment (A-15-10-20149)       19
                                          Appendices




Cost Analysis System Background Report and Viability Assessment (A-15-10-20149)
                                                                        Appendix A

Acronyms
 AGA              Association of Government Accountants
 AIMS             Administrative Instructions Manual System
 ARPS             Appeals Review Processing System
 CAS              Cost Analysis System
 CASRP            CAS Replacement
 DCS              Deputy Commissioner for Systems
 DDS              Disability Determination Service
 DI               Disability Insurance
 DIODS            Disability Insurance Operational Data Store
 FACTS            Financial Accounting System
 FASAB            Federal Accounting Standards Advisory Board
 FO               Field Office
 FPPS             Federal Personnel/Payroll System
 GAO              Government Accountability Office and General Accounting Office
 HI               Hospital Insurance (Medicare Part A)
 iClaim           On-Line Retirement Application
 ICTU             Immediate Claims Taking Unit
 ITFA             Inter-Trust Fund Adjustment
 IWMS             Integrated Workload Measurement System
 MARS             Metrics Activity Reporting System
 MCS              Modernized Claims System
 MSSICS           Modernized Supplemental Security Income Claims System
 OB               Office of Budget
 OCASS            Office of Cost Analysis and Systems Support
 ODAR             Office of Disability Adjudication and Review
 OEEAS            Office of Earnings Enumeration and Administrative Systems
 OF               Office of Finance


Cost Analysis System Background Report and Viability Assessment (A-15-10-20149)   A-1
 OMB              Office of Management and Budget
 OMVECTS          Office of Medical and Vocational Expertise Case Tracking
                  System
 OPSOS            Office of Public Service and Operations Support
 OTIS             ODAR Training Information System
 PayODS           Payroll Operational Data Store
 PCACS            Processing Center Action Control System
 PCMI             Processing Center Management Information
 PICA             Pre-Input Cost Analysis
 PSC              Program Service Center
 RASMTAS          Resource Accounting System / Mainframe Time & Attendance
                  System
 RSI              Retirement and Survivors Insurance
 SAWS             State Agency Work Sampling
 SFFAS            Statement of Federal Financial Accounting Standards
 SMI              Supplementary Medical Insurance (Medicare Part B)
 SSA              Social Security Administration
 SSI              Supplemental Security Income
 SSIPT            Supplemental Security Income Processing Time
 SSOARS           Social Security Online Accounting and Reporting System
 U.S.C.           United States Code
 WERS             Work Experience Reporting System
 WMT              Work Measurement Transition




Cost Analysis System Background Report and Viability Assessment (A-15-10-20149)   A-2
                                                                        Appendix B

Scope and Methodology
Grant Thornton reviewed the current state and history of the Social Security
Administration’s (SSA) Cost Analysis System (CAS), outlining its origin, policy,
technology evolution, and current configuration. The audit focused on an assessment
of CAS’ viability as a cost allocation system based on the comparison adequacy of its
methodology, technology, operations, supporting infrastructure, and business value.

To expand our knowledge and understanding of CAS, its operation, and the basics of its
underlying methodology, we obtained and examined existing CAS documentation.
These documents included the following.

•   The proposal to the SSA Commissioner, from 1973, for the implementation of a cost
    sharing methodology among the program activities (Note: the formal 1973
    Commissioner’s Decision memorandum could not be found).
•   Government Accountability Office’s (GAO) 1980 letter of approval of SSA's
    administrative accounting system, which included CAS.
•   The Guide on Administrative Cost Adjustments to Trust Fund Budget Activities –
    S&E Appropriation, dated September 10, 1974 that outlines the mechanics of the
    Inter-Trust Fund Adjustment calculation when that adjustment was done manually.
•   Current versions of the Cost Analysis Manual.
•   The Administrative Instructions Manual System, Chapter 4 on Financial
    Management.

In addition, we interviewed Agency subject matter experts from the Office of Cost
Analysis and Systems Support (OCASS) and the Office of Earnings Enumeration and
Administration Systems (OEEAS) for information on CAS methodology, process, and
workload and feeder systems. These interviews addressed questions from document
review, and provided increased understanding of CAS, as a system, its origins,
processes and technological evolution. During these meetings and discussions, we
were able to catalogue the evolution of CAS, as a system. OEEAS provided insight into
the primary feeder systems that collect and provide data to CAS. OCASS provided
considerable information related to CAS’ historical development, and operational
processes.

We identified recent CAS updates and technology upgrades through several
discussions with OEEAS and OCASS personnel, wherein the CAS technology roadmap
– past, present, and future – was outlined. Using process-mapping techniques, we
produced systems documentation (for example, operational, systems, and process
charts/diagrams) encompassing the current cost allocation processes. Upon



Cost Analysis System Background Report and Viability Assessment (A-15-10-20149)    B-1
completion, we presented this documentation to SSA and Office of the Inspector
General program experts for validation.

We interviewed internal users of CAS information: the Offices of Budget, Finance, and
Public Service and Operations Support. These organizations provided information on
their interface with CAS, the information they use, and its importance to their
responsibilities, along with an estimate of overall satisfaction with the system.

Based on Grant Thornton’s 15-plus years of experience and leadership in the
managerial cost accounting field, we developed a comparison matrix of viability criteria
related to methodology, operational process, technology, supporting infrastructure, and
business value. We then compared the characteristics of current CAS to these criteria
to arrive at a final assessment of the system’s viability.

The entities reviewed were OCASS and OEEAS. Our work was conducted at SSA
Headquarters in Baltimore, Maryland, from May through September 2010. We
determined that the data used in this report were sufficiently reliable given the review
objective and their intended use. We conducted this performance audit in accordance
with generally accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.




Cost Analysis System Background Report and Viability Assessment (A-15-10-20149)       B-2
                                                                               Appendix C

Cost Analysis System Component Descriptions
           Component                                             Description


Cost Analysis System (CAS)
Components


                                     Social Security Administration (SSA) system used to allocate and
Main CAS                             distribute program cost, workload and work year data across all
                                     program activities.


                                     Compiles the work measurement and paid time information derived
CAS Replacement (CASRP)              from CAS Renovation and SSA component systems, then re-formats
                                     it into a CAS compatible report.


                                     Compiles the workload and work year information derived from SSA
CAS Renovation                       component systems and re-formats it into a CASRP compatible data
                                     set.



Payroll and Accounting Feeders


                                     Breaks down payroll information received from the Department of
Payroll Online Data Store (PayODS)   the Interior’s payroll system, which handles SSA payroll, and
                                     provides it all SSA components.


                                     Department of the Interior’s payroll system that provides
Federal Personnel/Payroll System
                                     personnel/payroll information for some Federal employees. Feeds
(FPPS)
                                     payroll information to PayODS.


                                     SSA financial system of record. Provides the costs to be allocated
Social Security Online Accounting
                                     and distributed among programs, workloads, and supporting
and Reporting System (SSOARS)
                                     functions within the CAS.




Cost Analysis System Background Report and Viability Assessment (A-15-10-20149)                  C-1
Component                                      Description


Workload Feeders


Supplemental Security Income Processing        Provides SSI processing time data for Blind/Disabled
Time (SSIPT)                                   workload.


                                               Provides data on workload volume, samples, and work year
Work Measurement Transition (WMT)
                                               distributions for SSA field offices.


                                               A collection of 14 workload systems that feed specific
                                               workload count data to Work Measurement Transition (for
Individual Workload Systems                    example, Retirement, Survivors, and Disability Health
                                               Insurance Claims, Supplemental Security Income Claims,
                                               Post Entitlement Actions).


                                               Provides workload counts and samples for Program Service
Processing Center Management Information
                                               Centers and the Office of Disability and International
(PCMI)
                                               Operations.


                                               Collects workload count and sample tally information for
Processing Center Action Control System
(PCACS)                                        Processing Center Management Information.


Resource Accounting System / Mainframe         Provides the Office of the Deputy Commissioner of Systems
Time & Attendance System (RASMTAS)             regular work hours and overtime hours.


                                               Provides work sampling tally information for the Disability
State Agency Work Sampling (SAWS)
                                               Determination Service agencies.


Disability Insurance Operational Data Store    Provides workload counts, productivity per work year
(DIODS)                                        information for state agencies.


                                               Provides workload time information for Office of Earnings
Work Experience Reporting System (WERS)
                                               Operations.


Office of Disability Adjudication and Review
                                               Provides workload and work year information for ODAR and
(ODAR) & Office of Medical and Vocational
                                               the Office of Medical and Vocational Expertise.
Expertise Spreadsheets




Cost Analysis System Background Report and Viability Assessment (A-15-10-20149)                       C-2
Component                                    Description


Workload Feeders


ODAR Training Information System (OTIS)      Provides ODAR training information.


Claims Processing Measurement System
                                             Provides workload counts for ODAR.
(CPMS)


DataMart Operational Data Store (Data Mart
                                             Provides counts for the number of ODAR supervisors.
ODS)


Appeals Review Processing System             Provides workload counts for the Appeals Unit.
(ARPS)

Office of Medical and Vocational Expertise   Provides workload counts for the Office of Medical and
                                             Vocational Expertise.
Case Tracking System (OMVECTS)



Component                                    Description



Reporting and Data Storage


Oracle Query Tool                            SSA’s ad hoc reporting tool for CAS information.




Cost Analysis System Background Report and Viability Assessment (A-15-10-20149)                  C-3
                       Figure C-1: Current CAS Technical Environment




Cost Analysis System Background Report and Viability Assessment (A-15-10-20149)   C-4
                   Figure C-2: CAS Technical Environment Planned for 2013




Cost Analysis System Background Report and Viability Assessment (A-15-10-20149)   C-5
                                                                              Appendix D

External Recognition for Cost Analysis System
The Cost Analysis System (CAS) has received positive external recognition from
Government Accountability Office (GAO), the Association of Government Accountants
(AGA), the Office of Management and Budget (OMB), and independent auditor, and
Deloitte, per the table below.

Date        Source                                 Recognition

2009         AGA        AGA Corporate Partner Advisory Group research report on
                        Managerial Cost Accounting in the Federal Government: Providing
                        Useful Information for Decision-making cites SSA as a successful
                        cost accounting implementation. 1
2007         GAO        GAO report to congressional requestors on Managerial Cost
                        Accounting Practices: Implementation and Use Vary Widely
                        across 10 Federal Agencies, cites SSA for implementing
                        managerial cost accounting agency-wide, using cost information
                        routinely for decisionmaking, and for having strong leadership in
                        place. 2
2004        Deloitte    Deloitte CAS audit opines that “. . . aspects of the CAS we tested
                        appear to be effective in meeting management’s expectations for
                        complying with Federal guidance, given the assumption that the
                        CAS input data is accurate.” 3
2003         OMB        SSA is first to achieve green rating for Improved Financial
                        Performance. 4
1980         GAO        GAO reviews and approves SSA Administrative Accounting
                        System including CAS. 5

1
 Association of Government Accountants (AGA), Managerial Cost Accounting in the Federal
Government: Providing Useful Information for Decision Making, September 2009.
2
 Government Accountability Office (GAO), Managerial Cost Accounting Practices: Implementation and
Use Vary Widely Across Ten Federal Agencies, (GAO-07-679), July 2007.
3
 Cost Analysis System, Deloitte & Touche, LLP, dated 22 June 2004, SSA Contract Number
GS23F8132H.
4
 Government Accountability Office (GAO), President’s Management Agenda: Review of OMB’s Improved
Financial Performance Scorecard Process, (GAO-07-95), November 2006.
5
    Comptroller General, supra note 7.


Cost Analysis System Background Report and Viability Assessment (A-15-10-20149)
                                                                                          Appendix E

           Agency Comments




                                          SOCIAL SECURITY
MEMORANDUM


Date:      March 30, 2011                                                             Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Dean S. Landis /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “Cost Analysis Background Report and Viability
           Assessment” (A-15-10-20149)--INFORMATION



           Thank you for the opportunity to review the subject draft report. In your May 4, 2010 start
           notice, you indicated you would be conducting four separate reviews of our Cost Analysis
           System (CAS). This is the first in your series of four reports and lays the groundwork for your
           remaining reviews.

           Because of the interrelationship of all four reviews, we determined at this time it is premature to
           comment or respond to your recommendations. Once we receive the results of all your CAS
           reviews, we will provide consolidated comments and responses to your recommendations.

           Thank you for the opportunity to review the draft report. Please let me know if we can be of
           further assistance. You may direct staff inquiries to Chris Molander, Senior Audit Advisor at
           (410) 965-7401.




           Cost Analysis System Background Report and Viability Assessment (A-15-10-20149)
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
